No. 19-75

In the Supreme Court of the United States

 

JAMES JOSEPH GARNER,
Petitioner,
Vv.

STATE OF COLORADO,
Respondent.

 

On Petition for a Writ of Certiorari to the
Colorado Supreme Court

 

CERTIFICATE OF SERVICE

 

I, L. Andrew Cooper, a member of the Bar of the United States Supreme Court,
certify that on July 29, 2019, as required by Supreme Court Rule 29.5, I caused the
foregoing Blanket Consent to be electronically filed with the Clerk of the U.S.
Supreme Court, as well as causing the original and ten copies of the Consent to be
delivered to the Clerk via the U.S. mail in a properly addressed, first class postage
pre-paid envelope; and also to be served on counsel for the Petitioner, electronically
and by depositing three copies of same into the U.S. mail, first class postage pre-paid
(or via personal delivery*) in properly addressed envelopes, addressed to the
following:

Jeffrey L. Fisher Megan A. Ring*

Stanford Law School Inga K. Nelson

Supreme Court Clinic Office of the Colorado State Public Defender
559 Nathan Abbot Way 1300 Broadway, Ste. 300

Stanford, CA 94305 Denver, CO 80203

jlfisher@law.stanford.edu PDApp.Service@coloradodefenders.us
Counsel of Record
FOR THE ATTORNEY GENERAL

 

L. ANDREW COOPER

Deputy Attorney General
Colorado Dept. of Law

1300 Broadway, 10 Floor
Denver, CO 80203

(720) 508-6465

Email: andrew.cooper@coag.gov
Counsel of Record for Respondent
